Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




COLORADO IMPROPERLY CLAIMED
  SOME MEDICAID COSTS FOR
HOSPICE SERVICES PROVIDED BY
   EVERCARE HOSPICE AND
      PALLIATIVE CARE


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Patrick J. Cogley
                                               Regional Inspector General

                                                      October 2013
                                                      A-07-13-04204
                        Office of Inspector General
                                        https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
             at https://oig.hhs.gov/

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                       EXECUTIVE SUMMARY

  Colorado claimed an estimated $75,151 in unallowable Federal reimbursement for
  Medicaid hospice services provided by Evercare Hospice during the period October 1, 2009,
  through September 30, 2011.


WHY WE DID THIS REVIEW

A hospice is a public agency, private organization, or a subdivision of either that is primarily
engaged in providing care to terminally ill individuals. When hospice care is furnished to a
Medicaid recipient residing in a nursing facility, hospice and nursing facility providers enter into a
written agreement under which the hospice provider takes full responsibility for the professional
management of the recipient’s hospice services while the nursing facility provider agrees to
provide room and board. Under such an agreement, the hospice bills the State Medicaid agency
for nursing facility room and board costs on behalf of a Medicaid recipient. When the State
Medicaid agency reimburses the hospice for those costs, the hospice then passes those payments
through to the recipient’s nursing facility. Previous Office of Inspector General reviews found
that State Medicaid agencies, when reimbursing hospice providers for nursing facility room and
board claims, did not always use correct per diem rates, reimburse payments at the required 95-
percent room and board per diem rate, or reduce payments by Medicaid recipients’ financial
contributions.

The objective of this review was to determine whether the Colorado Department of Health Care
Policy and Financing’s (State agency’s) claimed costs for hospice services provided by Evercare
Hospice & Palliative Care (Evercare) were in accordance with Federal and State requirements
during the period October 1, 2009, through September 30, 2011.

BACKGROUND

In Colorado, the State agency is responsible for administering the Medicaid program. The Social
Security Act (the Act) gives State Medicaid agencies the option of offering hospice care as a
benefit to eligible Medicaid recipients. Federal regulations require the State agency to reduce
Medicaid payments to hospice providers by using certain additional financial resources of
recipients. In addition, the State agency must reimburse hospice providers at 95 percent of the
room and board per diem rate that the State agency would have paid to nursing facility providers
for recipients in nursing facilities who are not receiving hospice care. Additionally, the State
agency reimburses hospice providers at defined care-level rates for the types of hospice care they
provide to recipients and at a per diem rate for room and board provided by a nursing facility.
Further, the Act requires that Medicaid payments to States be increased to the extent of any
underpayment for which an adjustment has not already been made.

Evercare is a national hospice provider whose home office is in Eden Prairie, Minnesota, and that
provides hospice care to Medicaid recipients and other individuals facing serious or terminal
illness.



Colorado Medicaid Costs for Services Provided by Evercare Hospice & Palliative Care (A-07-13-04204)   i
The State agency made hospice payments to Evercare totaling $10,686,175 ($6,417,820 Federal
share) during the period October 1, 2009, through September 30, 2011.

WHAT WE FOUND

The State agency did not always claim costs for hospice services provided by Evercare in
accordance with Federal and State requirements. Specifically, claimed costs associated with 55 of
the 100 recipient months in our statistical sample were unallowable for the following reasons:

    •   the State agency did not reduce payments for hospice services by the amount of recipients’
        financial contributions (19 recipient months) resulting in overpayments totaling $20,437
        ($12,503 Federal share);

    •   the State agency did not reduce its payments to 95 percent of the room and board per diem rate
        (2 recipient months) resulting in overpayments totaling $273 ($168 Federal share); and

    •   the State agency did not use correct rates when making room and board per diem rate
        adjustment payments for hospice claims (34 recipient months) resulting in underpayments
        totaling $4,602 ($2,834 Federal share).

(A recipient month could contain either single or multiple claims for hospice services within that
month.)

Claimed costs associated with these 55 recipient months totaled $16,108 ($9,837 Federal share) in
net overpayments.

For the remaining 45 recipient months in our sample, the State agency claimed costs in
accordance with Federal and State requirements.

Based on the results of our statistical sample, we estimated that the State agency incorrectly
reimbursed Evercare at least $123,853 ($75,151 Federal share) for the period October 1, 2009,
through September 30, 2011, and incorrectly claimed these costs for Federal reimbursement.
The net overpayments occurred because the State agency’s claims processing system did not
have adequate computer edits and other internal controls to always ensure that the State agency
correctly claimed costs for hospice services provided under the Medicaid program.

WHAT WE RECOMMEND

We recommend that the State agency:

    •   recoup $75,151 from Evercare and refund this amount to the Federal Government and

    •   develop and implement enhanced internal controls, such as computer edits, to ensure that
        (1) payments for hospice claims are always reduced by recipient financial contributions,
        (2) room and board per diem is reimbursed at a 95-percent rate, and (3) correct room and
        board per diem rate adjustment payments are made.

Colorado Medicaid Costs for Services Provided by Evercare Hospice & Palliative Care (A-07-13-04204)   ii
EVERCARE COMMENTS AND OUR RESPONSE

In written comments on our draft report, Evercare said that it did not dispute our findings
regarding the 100 recipient months in our statistical sample. Evercare added, however, that in its
judgment our statistical estimation did not account for room and board positive offsets (i.e.,
underpayments) from the State agency. Evercare also asked that we add language to our report
regarding the flow of information and payments—to include retroactive payments—between the
State agency and hospice providers.

Contrary to Evercare’s statement, our statistical estimation took State agency room and board
underpayments and other positive offsets into account. We maintain that our statistical estimation
was correct and that all of our findings and recommendations remain valid.

With respect to the added language that Evercare requested, we believe that these issues bear, not
on our review, but rather on the relationship between Evercare and the State agency, and as such
would be more appropriately directed to the State agency.

STATE AGENCY COMMENTS AND OUR RESPONSE

In written comments on our draft report, the State agency partially concurred with our
recommendations. For our first recommendation, the State agency said that it agreed with most of
our audit findings. The State agency added, however, that it could not verify the overpayment
amount that we had determined but said that it would work with CMS to determine the correct
overpayment amount, perform the appropriate recovery, and refund the Federal Government the
Federal share of any overpayment.

The State agency concurred with our second recommendation and described corrective actions
that it had taken or would take.

Our draft report included another finding and associated recommendation that related to incorrect
care-level rate amounts. The State agency disagreed with this finding, saying that it paid the
claims correctly because it pays the lower of the amount calculated using predefined rates or the
billed amount.

After reviewing the State agency’s comments, we removed the finding and associated
recommendation related to incorrect care-level rates, which totaled $23 (Federal share) in
underpayments. As a result, our estimate of the incorrect reimbursement increased by $404
(Federal share), and we revised the associated recommendation accordingly.




Colorado Medicaid Costs for Services Provided by Evercare Hospice & Palliative Care (A-07-13-04204)   iii
                                                     TABLE OF CONTENTS


INTRODUCTION .................................................................................................................1

           Why We Did This Review .........................................................................................1

           Objective ....................................................................................................................1

           Background ................................................................................................................1
                 Medicaid Program ..........................................................................................1
                 Medicaid Hospice Program............................................................................2
                 Colorado Medicaid Hospice Program ............................................................2

           How We Conducted This Review..............................................................................3

FINDINGS .............................................................................................................................3

           Incorrect Payment Calculation...................................................................................4
                  Payments Not Reduced by Recipient Contributions ......................................4
                  Payment Reductions Not Made .....................................................................4
                  Incorrect Per Diem Rates ...............................................................................5

           Inadequate Controls ...................................................................................................5

           Unallowable Overpayments ......................................................................................5

RECOMMENDATIONS .......................................................................................................5

EVERCARE COMMENTS ...................................................................................................6

OFFICE OF INSPECTOR GENERAL RESPONSE TO EVERCARE COMMENTS ........6

STATE AGENCY COMMENTS ..........................................................................................6

OFFICE OF INSPECTOR GENERAL RESPONSE TO
 STATE AGENCY COMMENTS .......................................................................................6

APPENDIXES

           A: Related Office of Inspector General Reports .......................................................8

           B: Audit Scope and Methodology.............................................................................9

           C: Statistical Sampling Methodology .......................................................................11



Colorado Medicaid Costs for Services Provided by Evercare Hospice & Palliative Care (A-07-13-04204)                                          iv
        D: Sample Results and Estimates .............................................................................13

        E: Evercare Comments .............................................................................................14

        F: State Agency Comments ......................................................................................17




Colorado Medicaid Costs for Services Provided by Evercare Hospice & Palliative Care (A-07-13-04204)                            v
                                            INTRODUCTION

WHY WE DID THIS REVIEW

A hospice is a public agency, private organization, or a subdivision of either that is primarily
engaged in providing care to terminally ill individuals. When hospice care is furnished to a
Medicaid recipient residing in a nursing facility, hospice and nursing facility providers enter into a
written agreement under which the hospice provider takes full responsibility for the professional
management of the recipient’s hospice services while the nursing facility provider agrees to
provide room and board. Under such an agreement, the hospice bills the State Medicaid agency
for nursing facility room and board costs on behalf of a Medicaid recipient. When the State
Medicaid agency reimburses the hospice for those costs, the hospice then passes those payments
through to the recipient’s nursing facility. Previous Office of Inspector General reviews
(Appendix A) found that State Medicaid agencies, when reimbursing hospice providers for
nursing facility room and board claims, did not always use correct per diem rates, reimburse
payments at the required 95-percent room and board per diem rate, or reduce payments by Medicaid
recipients’ financial contributions.

OBJECTIVE

Our objective was to determine whether the Colorado Department of Health Care Policy and
Financing’s (State agency’s) claimed costs for hospice services provided by Evercare Hospice &
Palliative Care (Evercare) were in accordance with Federal and State requirements during the
period October 1, 2009, through September 30, 2011.

BACKGROUND

Medicaid Program

The Medicaid program provides medical assistance to low-income individuals and individuals
with disabilities. The Federal and State Governments jointly fund and administer the Medicaid
program. At the Federal level, the Centers for Medicare & Medicaid Services (CMS) administers
the program. Each State administers its Medicaid program in accordance with a CMS-approved
State plan. Although a State has considerable flexibility in designing and operating its Medicaid
program, it must comply with applicable Federal requirements.

States use the standard Form CMS-64, Quarterly Medicaid Statement of Expenditures for the
Medical Assistance Program (CMS-64 report), to report actual Medicaid expenditures for each
quarter and CMS uses it to reimburse States for the Federal share of Medicaid expenditures. The
amounts reported on the CMS-64 report and its attachments must be actual expenditures and be
supported by documentation.




Colorado Medicaid Costs for Services Provided by Evercare Hospice & Palliative Care (A-07-13-04204)   1
Medicaid Hospice Program

Federal statute gives State Medicaid agencies the option of offering hospice care as a benefit to
eligible Medicaid beneficiaries. 1 Medicaid payments for hospice care are made at one of four
care-level rates: routine home care, continuous routine home care, inpatient respite care, or
general inpatient care.

In addition, hospices will receive a 95-percent payment for the room and board per diem of
hospice patients residing in nursing facilities. When the State Medicaid agency reimburses the
hospice for those costs, the hospice will then pass those payments through to the recipient’s
nursing facility. Hospice and nursing facility providers enter into written agreements under which
the hospice provider takes full responsibility for the professional management of a recipient’s
hospice services while the nursing facility provider agrees to provide room and board. Room and
board include the provision of a room and meals as well as services such as administering
medication, maintaining the cleanliness of the recipient’s room, and supervising and assisting
recipients in using durable medical equipment. The nursing facility provider bills the hospice
provider for room and board provided to a recipient receiving hospice care.

Colorado Medicaid Hospice Program

In Colorado, the State agency is responsible for administering the Medicaid program. The
amount that the Federal Government reimburses to the State agency, known as Federal financial
participation (FFP) or Federal share, is determined by the Federal medical assistance percentage
(FMAP), which varies based on a State’s relative per capita income. The State agency’s FMAP
rates ranged from 50.00 to 61.59 percent during Federal fiscal years 2010 through 2011
(October 1, 2009, through September 30, 2011, our audit period).

Federal regulations require the State agency to reduce Medicaid payments to hospice providers by
using certain additional financial resources of recipients. These resources include Social Security
or pension income along with health and casualty insurance payments. The State agency must
reimburse hospice providers at 95 percent of the room and board per diem rate that the State
agency would have paid to nursing facility providers for recipients in a nursing facility who are not
receiving hospice care. Additionally, the State agency reimburses hospice providers at defined
care-level rates for the types of hospice care they provide to recipients, and at a per diem rate for
room and board provided by a nursing facility.

Overpayments to hospice providers can occur if the State agency does not reduce the Medicaid
payment by the amount of a recipient’s financial contribution. Overpayments can also occur if the
State agency reimburses hospice providers above 95 percent of the room and board per diem rate
or reimburses them at an incorrect care-level rate. When hospice providers receive overpayments,
they must refund all overpayments to the State agency, which in turn must refund the Federal share
to CMS on its CMS-64 report.



1
    The Social Security Act (the Act), sections 1902(a)(10)(A), 1905(a), and 1905(a)(18).


Colorado Medicaid Costs for Services Provided by Evercare Hospice & Palliative Care (A-07-13-04204)   2
Section 1903 of the Act addresses payments to States under the Medicaid program, to include
general language about FMAP rates and enhanced rates for certain services. The Act requires that
payments be increased to the extent of any underpayment for which an adjustment has not already
been made (section 1903(d)(2)(A)).

HOW WE CONDUCTED THIS REVIEW

The State agency made hospice payments to Evercare totaling $10,686,175 ($6,417,820 Federal
share) during the period October 1, 2009, through September 30, 2011. Many recipients had some
form of income that should have been counted toward their financial contribution. From the total
payments made to Evercare by the State agency, we identified 1,653 recipient months, with
payments totaling $3,757,325 ($2,254,185 Federal share), as high-risk because these months were
not reduced by any recipient financial contributions. 2 From those 1,653 recipient months, we
reviewed a simple random sample of 100 recipient months paid for hospice services.

We conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.

Appendix B contains details of our audit scope and methodology and Appendix C contains the
details of our statistical sampling methodology.

                                                      FINDINGS

The State agency did not always claim costs for hospice services provided by Evercare in
accordance with Federal and State requirements. Specifically, claimed costs associated with 55 of
the 100 recipient months in our statistical sample were unallowable for the following reasons:

       •   the State agency did not reduce payments for hospice services by the amount of recipients’
           financial contributions (19 recipient months) resulting in overpayments totaling $20,437
           ($12,503 Federal share);

       •   the State agency did not reduce its payments to 95 percent of the room and board per diem rate
           (2 recipient months) resulting in overpayments totaling $273 ($168 Federal share); and

       •   the State agency did not use correct rates when making room and board per diem rate
           adjustment payments for hospice claims (34 recipient months) resulting in underpayments
           totaling $4,602 ($2,834 Federal share).

Claimed costs associated with these 55 recipient months totaled $16,108 ($9,837 Federal share) in
net overpayments.


2
    A recipient month could contain either single or multiple claims for hospice services within that month.


Colorado Medicaid Costs for Services Provided by Evercare Hospice & Palliative Care (A-07-13-04204)            3
For the remaining 45 recipient months in our sample, the State agency claimed costs in
accordance with Federal and State requirements.

Based on the results of our statistical sample, we estimated that the State agency incorrectly
reimbursed Evercare at least $123,853 ($75,151 Federal share) for the period October 1, 2009,
through September 30, 2011, and incorrectly claimed these costs for Federal reimbursement. The
net overpayments occurred because the State agency’s claims processing system did not have
adequate computer edits and other internal controls to always ensure that the State agency
correctly claimed costs for hospice services provided under the Medicaid program. Appendix D
contains details on our sample results and estimates.

INCORRECT PAYMENT CALCULATION

For 55 of the 100 recipient months in our statistical sample, the State agency did not claim costs
for hospice services provided by Evercare in accordance with Federal and State requirements.
Claimed costs associated with these 55 recipient months totaled $16,108 ($9,837 Federal share) in
net overpayments.

Payments Not Reduced by Recipient Contributions

Federal regulations state that State Medicaid agencies must reduce payments to institutions for
services provided to Medicaid-eligible individuals by the amount that remains after adjusting an
individual’s total income by deductions for clothing and other needs for the individual, by
deductions for spousal and family maintenance needs, and by deductions for other considerations
(42 CFR § 435.733).

For 19 of the 100 recipient months that we sampled, the State agency did not reduce payments for
hospice services by the amount of recipients’ financial contributions. The payments not reduced
by recipient contributions resulted in overpayments for the 19 recipient months totaling $20,437
($12,503 Federal share). For example, one claim reimbursement for a recipient’s nursing facility
room and board was $4,546. The State agency did not reduce the payment by the recipient’s
monthly $432 financial contribution. The reimbursement for this claim should therefore have
been $4,114, which meant that there was a $432 overpayment.

Payment Reductions Not Made

Section 1902(a)(13)(B) of the Act requires hospice per diem rates to equal 95 percent of the rate
that would have been paid by a State agency to a nursing facility provider if the recipient had not
been receiving hospice care.

For 2 of the 100 recipient months that we sampled, the State agency did not reduce the payment to
95 percent of the per diem rate for hospice room and board claims. Because the correct payment
reductions were not made, the provider received overpayments for the 2 recipient months totaling
$273 ($168 Federal share). For example, the State agency reimbursed one claim at $2,480.52.
However, at the 95-percent rate the claim reimbursement should have been $2,356.49. This claim
thus had an overpayment of $124.03.

Colorado Medicaid Costs for Services Provided by Evercare Hospice & Palliative Care (A-07-13-04204)   4
Incorrect Per Diem Rates

Section 1903 of the Act addresses payments to States under the Medicaid program, to include
general language about FMAP rates and enhanced rates for certain services. The Act requires that
payments be increased to the extent of any underpayment for which an adjustment has not already
been made (section 1903(d)(2)(A)). Therefore, we have included underpayments that were
identified during our review.

These underpayments were identified as claims for which the State agency’s reimbursements
did not use correct nursing facility rates. For 34 of the 100 recipient months that we sampled,
the State agency did not use correct rates when making room and board per diem rate
adjustment payments for hospice claims. The incorrect per diem rates resulted in
underpayments for the 34 recipient months totaling $4,602 ($2,834 Federal share). For
example, the State agency reimbursed one nursing facility room and board claim for 30 days at a
per diem rate of $210.36 instead of using the rate of $214.73, resulting in an underpayment of
$131.10.

INADEQUATE CONTROLS

The net overpayments occurred because the State agency’s claims processing system did not have
adequate computer edits and other internal controls to ensure that the State agency correctly
claimed costs for hospice services provided under the Medicaid program. The State agency’s
Medicaid Management Information System (MMIS) did not have adequate computer edits to
ensure that payments for hospice claims were always reduced by recipient financial contributions,
that room and board per diem was reimbursed at a 95-percent rate, and that correct room and board
per diem rate adjustment payments were made.

UNALLOWABLE OVERPAYMENTS

Based on the results of our statistical sample, we estimated that the State agency incorrectly
reimbursed Evercare at least $123,853 ($75,151 Federal share) for the period October 1, 2009,
through September 30, 2011.

                                        RECOMMENDATIONS

We recommend that the State agency:

    •   recoup $75,151 from Evercare and refund this amount to the Federal Government and

    •   develop and implement enhanced internal controls, such as computer edits, to ensure that
        (1) payments for hospice claims are always reduced by recipient financial contributions,
        (2) room and board per diem is reimbursed at a 95-percent rate, and (3) correct room and
        board per diem rate adjustment payments are made.




Colorado Medicaid Costs for Services Provided by Evercare Hospice & Palliative Care (A-07-13-04204)   5
                                      EVERCARE COMMENTS

In written comments on our draft report, Evercare said that it did not dispute our findings
regarding the 100 recipient months in our statistical sample. Evercare added, however, that in its
judgment our statistical estimation did not account for room and board positive offsets (i.e.,
underpayments) from the State agency. Evercare also asked that we add language to our report
regarding the flow of information and payments—to include retroactive payments—between the
State agency and hospice providers.

Evercare’s comments are included in their entirety as Appendix E.

    OFFICE OF INSPECTOR GENERAL RESPONSE TO EVERCARE COMMENTS

Our statistical estimation took State agency room and board underpayments and other positive
offsets into account. We maintain that our statistical estimation was correct and that all of our
findings and recommendations remain valid.

With respect to the added language that Evercare requested, we believe that these issues bear, not
on our review, but rather on the relationship between Evercare and the State agency, and as such
would be more appropriately directed to the State agency.

                                   STATE AGENCY COMMENTS

In written comments on our draft report, the State agency partially concurred with our
recommendations. For our first recommendation, the State agency said that it agreed with most of
our audit findings. The State agency added, however, that it could not verify the overpayment
amount that we had determined but said that it would work with CMS to determine the correct
overpayment amount, perform the appropriate recovery, and refund the Federal Government the
Federal share of any overpayment.

The State agency concurred with our second recommendation and described corrective actions
that it had taken or would take.

Our draft report included another finding and associated recommendation that related to incorrect
care-level rate amounts. The State agency disagreed with this finding, saying that it paid the
claims correctly because it pays the lower of the amount calculated using predefined rates or the
billed amount.

The State agency’s comments are included in their entirety as Appendix F.

                     OFFICE OF INSPECTOR GENERAL RESPONSE TO
                             STATE AGENCY COMMENTS

After reviewing the State agency’s comments, we removed the finding and associated
recommendation related to incorrect care-level rates, which totaled $23 (Federal share) in



Colorado Medicaid Costs for Services Provided by Evercare Hospice & Palliative Care (A-07-13-04204)   6
underpayments. As a result, our estimate of the incorrect reimbursement increased by $404
(Federal share), and we revised the associated recommendation accordingly.




Colorado Medicaid Costs for Services Provided by Evercare Hospice & Palliative Care (A-07-13-04204)   7
       APPENDIX A: RELATED OFFICE OF INSPECTOR GENERAL REPORTS

                            Report Title                                      Report               Date
                                                                             Number               Issued
Rhode Island Hospice General Inpatient Claims and Payments                A-01-12-00002         8/13/2012
Did Not Always Meet Federal and State Requirements
Rhode Island Did Not Always Comply With State Requirements                A-01-11-00005         3/26/2012
on Medicaid Payments for Hospice Services
Review of Medicaid Hospice Payments to Evercare Hospice                   A-01-10-00012         9/23/2011
& Palliative Care for State Fiscal Years 2007 Through 2009
Review of Medicaid Hospice Payments Made by                               A-01-10-00004         2/18/2011
Massachusetts for State Fiscal Years 2007 and 2008




Colorado Medicaid Costs for Services Provided by Evercare Hospice & Palliative Care (A-07-13-04204)         8
                      APPENDIX B: AUDIT SCOPE AND METHODOLOGY

SCOPE

We reviewed $10,686,175 ($6,417,820 Federal share) that the State agency claimed for Evercare
hospice services in Colorado during the period October 1, 2009, through September 30, 2011.
We did not include a focused medical review to determine whether the services were medically
necessary.

We did not review the overall internal control structure of the State agency or the Medicaid
program. We reviewed only the internal controls that pertained directly to our objective.

We performed fieldwork at Evercare in Denver, Colorado, in August 2012.

METHODOLOGY

To accomplish our objective, we:

     • reviewed Federal and State hospice and nursing home requirements;

     • interviewed officials from CMS, the State agency, and Evercare to gain an understanding
       of the Colorado hospice program;

     • reconciled hospice claims reported on the State agency’s CMS-64 reports for Federal
       fiscal years 2010 through 2011 to the State agency’s supporting documentation;

     • defined high-risk recipient months as those not containing any recipient financial
       contributions;

     • identified, from the State agency’s MMIS file, 1,653 high-risk recipient months
       totaling $3,757,325 ($2,254,185 Federal share);

     • selected a simple random sample (Appendix C) of 100 of the 1,653 recipient months
       totaling $189,006 ($114,623 Federal share);

     • reviewed nursing home billing invoices, remittance advices, 3 and State agency claims data
       to validate payment information and determine whether the 100 sampled recipient months
       were correctly reimbursed by the State agency;

     • estimated the total overpayments and the Federal share of these overpayments based on
       our sample results (Appendix D), and

3
  A remittance advice is a notice of payments and adjustments to providers, billers, and suppliers, which may serve as
a companion to a claim payment(s) or as an explanation when there is no payment. The remittance advice explains
the reimbursement decisions, including the reasons for payments and adjustments of processed claims.


Colorado Medicaid Costs for Services Provided by Evercare Hospice & Palliative Care (A-07-13-04204)                 9
     • provided the results of our review to Evercare officials on March 18, 2013.

 We assessed the reliability of the hospice claims data provided by the State agency by
 reconciling it to the applicable CMS-64 report and the State agency’s supporting documentation.
 We determined that the data were sufficiently reliable for the purposes of this review.

 We conducted this performance audit in accordance with generally accepted government
 auditing standards. Those standards require that we plan and perform the audit to obtain
 sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
 based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
 for our findings and conclusions based on our audit objectives.




Colorado Medicaid Costs for Services Provided by Evercare Hospice & Palliative Care (A-07-13-04204)   10
                 APPENDIX C: STATISTICAL SAMPLING METHODOLOGY

POPULATION

The population consisted of 4,692 recipient months totaling $10,686,175 in hospice services
claims submitted for reimbursement by Evercare for the period October 1, 2009, through
September 30, 2011 (audit period).

SAMPLING FRAME

The State agency provided us with a Microsoft Access database from its MMIS that contained
claims information for the audit period. The State agency’s claims data contained eight quarterly
tables, which we consolidated into a single table. The total reimbursement to Colorado hospice
providers was $82,720,151. The total amount claimed by the State agency for the audit period as
hospice benefit expenditures on the CMS-64 report, line 26 (Hospice Benefits), was $82,492,717.
There was a difference of $227,434 between total reimbursement to Colorado hospice providers
by the State agency and the amount the State agency claimed as expenditures on the CMS-64
report, line 26. 4

We determined that claims containing zero dollars for patient payments in a recipient month were
a higher risk for payment errors, as many recipients had some form of income that should have
been counted toward the patient payment. We limited our scope to recipient months in which at
least 1 day of hospice service was provided and which had claim reimbursements greater than
$140. We developed a sampling frame of 1,653 recipient months, totaling $3,757,325 of
reimbursement, which had zero dollars of patient payments and claims reimbursements that were
greater than $140. We selected $140 as this threshold because that amount was higher (by $4)
than the lowest routine home care rate 5 that the State agency paid during the period October 1,
2009, through September 30, 2011.

SAMPLE UNIT

The sample unit is one recipient month.

SAMPLE DESIGN

Our sample design is a simple random sample.

SAMPLE SIZE

Our sample size is 100 recipient months.

4
  Due to the immateriality of this difference ($227,434 / $82,492,717 = 0.28 percent) and the State agency’s inability
to further reconcile the data, we decided to use the State agency-provided MMIS data for our review.
5
 The routine home care rate is reimbursed each day that the recipient is at home and not receiving continuous home
care.


Colorado Medicaid Costs for Services Provided by Evercare Hospice & Palliative Care (A-07-13-04204)                11
SOURCE OF RANDOM NUMBERS

We generated the random numbers with the Office of Inspector General, Office of Audit Services,
statistical software (RAT-STATS).

ESTIMATION METHODOLOGY

We used RAT-STATS to estimate the unallowable payments for hospice services. Because the
FMAP rate varied from quarter to quarter, we made separate estimations for the total unallowable
costs and for the Federal share of those unallowable costs.




Colorado Medicaid Costs for Services Provided by Evercare Hospice & Palliative Care (A-07-13-04204)   12
                    APPENDIX D: SAMPLE RESULTS AND ESTIMATES

                       SAMPLE RESULTS AT TOTAL COMPENSATION

                                                                 Number of     Amount of
                                  Sample         Value of       Claims With   Unallowable
  Frame        Frame Value         Size          Sample         Unallowable  Reimbursement
   Size                                                        Reimbursement
  1,653          $3,757,325          100        $189,006             55         $16,108

     ESTIMATES OF UNALLOWABLE PAYMENTS AT TOTAL COMPENSATION
               (Limits Calculated for a 90-Percent Confidence Interval)

                                                          Total Estimated
                                                           Unallowable
                                                          Reimbursement
                         Point estimate                      $266,253
                         Lower limit                         $123,853
                         Upper limit                         $408,653

             SAMPLE RESULTS AT FEDERAL FINANCIAL PARTICIPATION

                                                                 Number of     Amount of
                                  Sample         Value of       Claims With   Unallowable
  Frame        Frame Value         Size          Sample         Unallowable     Federal
   Size                                                           Federal    Reimbursement
                                                               Reimbursement
   1,653         $2,254,185          100        $114,623             55          $9,837

       ESTIMATES OF UNALLOWABLE PAYMENTS AT FEDERAL FINANCIAL
                                 PARTICIPATION
               (Limits Calculated for a 90-Percent Confidence Interval)

                                                        Total Estimated
                                                       Unallowable Federal
                                                         Reimbursement
                         Point estimate                     $162,605
                         Lower limit                         $75,151
                         Upper limit                        $250,058




Colorado Medicaid Costs for Services Provided by Evercare Hospice & Palliative Care (A-07-13-04204)   13
                              APPENDIX E: EVERCARE COMMENTS





           ~ Evercare
           Hospice & Palliative Care

          June 27, 2013

          Patrick J. Cogley
          Regional Inspector General for Audit Services
          Office of Audit Services
          Office of the Inspector General, Region VII
          301 East 12th Street, Room 0429
          Kansas City, MO 64106

          Report Number: A-07-13-04204

          Dear Mr. Cogley:

         The following is Evercare Hospice, Inc.'s ("Evercare") response to the Office of Inspector General's
         ("OIG") draft report entitled Colorado Improperly Claimed Some Medicaid Costs for Hospice Services
         Provided by Evercare Hospice and Palliative Care dated June 2013 ("Draft Audit Report").

         Overview of Draft Findings and Recommendations

         OIG conducted a review to determine whether the Colorado Department of Health Care Policy and
         Financing's (State agency) claimed costs for hospice services provided by Evercare Hospice & Palliative
         Care (Evercare) were in accordance with Federal and State requirements during the period October 1,
         2009 through September 30, 2011 (the "Audit Period" ). During the Audit Period, the State agency
         made hospice payments to Evercare totaling $10,686,175 ($6,417,820 Federal share). From the total
         payments made to Evercare by the State agency, OIG identified 1,653 recipient months, with payments
         totaling $3,757,325 ($2,254,185 Federal share), as high-risk because these months were not reduced
         by any recipient financial contributions. From these 1,653 recipient months, OIG reviewed a random
         sample of 100 recipient months paid for hospice services (the "Audit Sample") with a value of
         $189,006.

         On June 7, 2013, OIG provided Evercare with the Draft Audit Report identifying potential billing and
         payment discrepancies during the Audit Period. OIG stated that:

                 The net overpayments occurred because the State agency's claims processing system did not
                 have adequate computer edits and other internal controls to ensure that the State agency
                 correctly claimed costs for hospice services provided under the Medicaid program. The State
                 agency's Medicaid Management Information System (MMIS) did not have adequate computer
                 edits to ensure that payments for hospice claims were always reduced by recipient financial




Colorado Medicaid Costs for Services Provided by Evercare Hospice & Palliative Care (A-07-13-04204)                14
                 contributions, that room and board per diem was reimbursed at a 95 percent rate, that correct
                 Medicaid care-level rates were used, and that correct room and board per diem rate
                 adjustment payments were made.

          Based on the foregoing draft findings, OIG recommends that State agency:
                 • Recoup $74,474 from Evercare and refund this amount to the Federal Government and;

                 •   Develop and implement enhanced internal controls, such as computer edits, to ensure that
                     (1) payments for hospice claims are always reduced by recipient financial contributions, (2)
                     room and board per diem is reimbursed at a 95 percent rate, (3) correct care-level rates are
                     used, and (4) correct room and board per diem rate adjustment payments are made.

          Evercare's Response to Draft Findings and Recommendations

          Based on an analysis of the Draft Audit Report and Evercare's own internal review, Evercare does not
          dispute the financial summary regarding the one hundred patients. However, Evercare believes that
          the offset fails to take into account the positive offsets for Evercare where it was underpaid for room
          and board services. Additionally, Evercare would encourage OIG to include several other pertinent
          facts in the final report.

          Evercare asks that OIG please consider adding language addressing the following issues:
             1. The state agency changes room and board rates retroactively on a regular basis, requiring mass
                 retroactive adjustments;
             2. The hospice organizations in Colorado do not have direct access to the most accurate patient
                 responsibility information. They must rely on the state, county and SNFs to maintain accurate
                 records; and
             3. Hospice organizations perform the billing function on behalf of Medicaid at a loss. Room and
                 Board charges are a pass through from the state to the facilities and result in unreimbursed
                 administrative costs to the hospice agency.

         An example of the retroactive adjustments can be evidenced by a r ecent communication on May 10,
         2013, whereby Evercare received an email communication from a Provider Fee Analyst with the
         Colorado Department of Health Care Policy and Financing. This email stated that the final fiscal year
         (FY) 2012-13 rates for room and board claims (Revenue Code 659) had been loaded into the MMIS.
         These rates are effective back to July 1, 2012. Evercare was instructed to begin billing these claims at
         the final rates. Additionally, Evercare was instructed to make adjustments to the charges on all room
         and board claims back to July 1, 2012. The State agency included a list of all Colorado Medicaid
         Nursing Facilities and their final rates for FY 2012-13 for our reference.

         The State agency stated that while they understand the administrative burden associated with
         adjusting room and board claims when they finalize rates during the fiscal year and need to do a mass
         adjustment of prior claims, they acknowledge that "Our system is not capable of performing this
         adjustment automatically, due to lower-of billing." The other options that were available posed great
         accounting and audit risk to the Department and were not supported by the State agency Controller.




Colorado Medicaid Costs for Services Provided by Evercare Hospice & Palliative Care (A-07-13-04204)                 15
         Thus, they requested that hospice providers adjust all of their claims for NF room and board Revenue
         Code 659 between July 1, 2012 and April15, 2013.

         Based on Evercare's internal review, Evercare's claims contained the most accurate information
         available to it at the time of billing. Evercare did not intend to obtain payment from the State agency
         to which it was not entitled and reasonably expected State agency system edits to properly adjust
         claim payment amounts based on the information available to the state agency.

         Please feel free to contact me directly if you have any questions regarding Evercare's response to the
         Draft Audit Report.



         Respectfully Submitted,




          .~
         Compliance Officer
         Evercare Hospice & Palliative Care
         612-632-5259



          cc:   Chris Stidman, SVP, Optum Complex Population Management
                Cyndi Seiwert, Chief Operating Officer, Evercare Hospice & Palliative Care
                Lin Howland, Executive Director, Evercare Hospice & Palliative Care, Colorado Springs, CO
                Soto Flouris, Executive Director, Evercare Hospice & Palliative Care, Denver, CO
                Randy Drager, Chief Financial Officer




Colorado Medicaid Costs for Services Provided by Evercare Hospice & Palliative Care (A-07-13-04204)                16
                                    APPENDIX F: STATE AGENCY COMMENTS





                                   COLORADO DEPARTMENT OF HEALTH CARE POLICY & FINANCING
                                   1570 Grant Street, Denver, CO 80203-1818 • (303) 866-2993 • (303) 866-4411 Fax • (303) 866-3883 TTY
                                   John W. Hlckenlooper, Governor • Susan E. Birch MBA, BSN, RN, Executive Director




            September 18, 2013


            Patrick J. Cogley, Regional Inspector General for Audit Services
            Office of the Inspector General
            Office of Audit Services, Region VII
            601 E. l21h St., Room 0429
            Kansas Ctty, MO 64106


            Dear Mr. Cogley:

            Attached pleased find the Department of Health Care Policy and Financing's submission of
            responses to the draft report entitled Colorado Improperly Claimed Some Medicaid Costs for
            Hospice Services Provided by Evercare Hospice & Palliative Care (Report Number A-07-13-
            04204).

            If you have any questions or comments, please c:ontact me at 303-866-3538 or
            meri.delyser@ state.co.us.

            Sincerely:



            ~.... A!!r_,/
            Meri DeLyser
            A ndits Section Manager



            cc:      Steven Woodruff, Office of lnspedor General



            Enclosure




             '•The mhsion of th e oe,,arlmeut of Health Care Policy & F:nandf'lg is to imJltO"£' acc:e-ss to cosl-effet live, quillity health Ci1r!! s1:rvices ;or r:oior.ldans"
                                                                                   coro~adc.. f>ov/t·cpf




Colorado Medicaid Costs for Services Provided by Evercare Hospice & Palliative Care (A-07-13-04204)                                                                                17
                                Department of Health Care Policy and Financing's
                                                 Response to the
                                     Department of Health & Human Services
                                           Office of Inspector General
             Colorado Improperly Claimed Some Medicaid Costs for Hospice Services Provided by Evercare
                                            Hospice & Palliative Care
                                         Control Number A-07-13-04204
                                                    July 2013


            RECOMMENDATION

            We recommend that the State Agency:
              • recoup $74,747 from Evercare and refund this amount to the Federal Government.

            Resp onse:

            The Department does agree with most ofthe Office of the Inspector General's (OlG) audit.
            However, at this time, the Department cannot verifY the overpayment amount. The Department
            will work with the Centers for Medicare and Medicaid Services and determine the correct
            amount. Once that is accomplished, the Department will perform the appropriate recovery and
            refund the federal government the federal share ofany overpayment.




            RECOMMENDATION

            We recommend that the State Agency:
              • develop and implement enhanced internal controls, such as computer edits to ensure
                  that:
                  (1) Payments for hospice claims are always reduced by recipient financial
                      contributions

            Response: Concur.

             The Department agrees with this finding and will document a procedure for post-payment review
            of nursing facility (NF) hospice claims. To the extent feasible, if the Department is able at a
            future date to automate the procedure within Medicaid Management Information System (MMIS)
            to ensure pre-payment reduction offunds by the amount of recipient financial contributions, it
            will.




                                                          1




Colorado Medicaid Costs for Services Provided by Evercare Hospice & Palliative Care (A-07-13-04204)           18
            Department of Health Care Policy and Financing
            Response to Control Number A-07-13-04204


            RECOMMENDATION

            We recommend that the State Agency:
              • develop and implement enhanced internal controls, such as computer edits to ensure
                  that:
                  (2) Room and board per diem is reimbursed at a 95-percent rate

            Response: Concur.

            The Department has determined that the reason for overpayment reflected a switch of NF
            ownership, of which the hospice was not informed. As a result, the hospice rate was based on
            t/te.original provider rate not on· the new provider rate resulting from the transfer ofownership. .



            RECOMMENDATION

            We recommend that the State Agency:
              • develop and implement enhanced internal controls, such as computer edits to ensure
                  that:
                  (3) Correct care-level rates are used

            Response: Disagree.

    _. I    The claims which were the subject of this finding were correctlypaid._ The deparhnent pays the
            lower ofthe amount calculated using predefined rates or the billed amount. For these claims,
            the billed amount was lower.



            RECOMMENDATION

            We recommend that the State Agency:
              • develop and implement enhanced internal controls, such as computer edits to ensure
                  that:
                  (4) Con·ect room and board per diem rate adjustment payments are made

            Response: Concur.

            The claims that were the subject of this finding were all the result of an adjustment process
            which does not correctZv update NF hospice claims following a retroactive NF ra,te increase.
            The sequence ofsteps for correcting the adjustment process in the MMIS has been initiated.




                                                              2




Colorado Medicaid Costs for Services Provided by Evercare Hospice & Palliative Care (A-07-13-04204)                19
